APPENDIX
B

Case: 19-50161, 12/22/2020, ID: 11936525, DktEntry: 50, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
DEC 22 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

19-50161

D.C. No.
3:18-cr-03798-AJB-1
Southern District of California,
San Diego

MIGUEL ANGEL MENDOZA,
ORDER
Defendant-Appellant.
Before: KLEINFELD, HURWITZ, and BRESS, Circuit Judges.
The panel unanimously voted to deny the petition for panel rehearing. Judge
Hurwitz and Judge Bress voted to deny the petition for rehearing en banc, and Judge
Kleinfeld so recommended. The petition for rehearing en banc was circulated to the
judges of the Court, and no judge requested a vote for en banc consideration. Fed.
R. App. P. 35.
The petition for panel rehearing and rehearing en banc is DENIED.

